 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT

                 Fiscal Year 2010
Evaluation of the Social Security Administration's
               Compliance with the
  Federal Information Security Management Act
                   A-14-10-20109




                 November 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s
a n d o p e ra tio n s a n d pro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e
tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls ,
Co n g re s s a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n

We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                SOCIAL SECURITY

MEMORANDUM

Date:      November 10, 2010                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fiscal Year 2010 Evaluation of the Social Security Administration’s Compliance with the
           Federal Information Security Management Act (A-14-10-20109)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall security program and practices complied with the requirements of the Federal
           Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2010. 1

           BACKGROUND
           FISMA provides the framework for securing the Government’s information and
           information systems. All agencies must implement the requirements of FISMA and
           report annually to the Office of Management and Budget (OMB) and Congress on the
           adequacy and effectiveness of their security programs. FISMA requires that each
           agency develop, document, and implement an agency-wide information security
           program. 2

           OMB uses information reported pursuant to FISMA to evaluate agency-specific and
           Government-wide security performance, develop the annual security report to
           Congress, and assist in improving and maintaining adequate agency security
           performance. OMB issued Memorandum M-10-15, FY 2010 Reporting Instructions for
           the Federal Information Security Management Act and Agency Privacy Management, on
           April 21, 2010. OMB continues to require that agencies use a Web platform,
           CyberScope, to submit the annual FISMA report.

           In the FY 2010 FISMA guidance, OMB stated that “[a]gencies need to be able to
           continuously monitor security-related information from across the enterprise in a
           manageable and actionable way…. To do this, agencies need to automate security-
           related activities, to the extent possible, and acquire tools that correlate and analyze
           security-related information. Agencies need to develop automated risk models and

           1
               Pub. L. No. 107-347, Title III, Section 301.
           2
               Pub. L. No. 107-347, Title III, Section 301 § 3544(b), 44 U.S.C. § 3544(b).
Page 2 - The Commissioner


apply them to the vulnerabilities and threats identified by security management tools.” 3
OMB also stated “[a]ny reporting should be a by-product of agencies’ continuous
monitoring programs and security management tools.” 4 Agencies should provide direct
feeds from their security management tools to CyberScope. For those agencies that do
not have this ability, OMB will soon release a roadmap that will allow agencies to upload
data from security management tools to CyberScope. 5

This year, OMB instructed the Inspectors General (IG) to focus on their respective
agency’s management performance, in line with the requirements of FISMA. 6 The IGs
were asked to assess agency performance in 10 major FISMA programs.7 IGs were
also required to determine areas for significant improvement if any agency programs did
not have these key attributes.8

See Appendix B for OMB’s 10 major FISMA programs and the required attributes for
each program and Appendix C for additional background.

SCOPE AND METHODOLOGY
FISMA directs each agency’s IG or an independent external auditor, as determined by
the agency’s IG, to perform an annual, independent evaluation of the effectiveness of
the agency’s information security program and practices. 9 SSA’s Office of the Inspector
General (OIG) contracted with Grant Thornton LLP (GT) to audit SSA’s FY 2010
financial statements.10 Because of the extensive internal control system review that is
completed as part of that work, the OIG’s FISMA requirements were incorporated into
GT’s financial statement information technology (IT) related work. This evaluation
included the Federal Information System Controls Audit Manual (FISCAM) level reviews
of SSA’s financial-related information systems. GT also performed an “agreed-upon
procedures” engagement using FISMA, OMB, National Institute of Standards and
Technology (NIST) guidance, FISCAM, and other relevant security laws and regulations

3
 OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, page 1, April 21 2010.
4
     OMB M-10-15, supra at page 2.
5
     Id.
6
     OMB M-10-15, supra at page 3.
7
     Id.
8
  OMB M-10-15, supra, requires all reporting through CyberScope, page 2. The OMB-specified attributes
for each program and the significant improvement examples are required to be posted on OMB’s
CyberScope Website, if necessary. The agency Chief Information Officers and IGs report through
CyberScope.
9
    Pub. L. No. 107-347, Title III, Section 301, 44 U.S.C. § 3545(b)(1).
10
  OIG Contract Number GS-23F-8196H, December 3, 2009. FY 2010 option was exercised in
December 2009.
Page 3 - The Commissioner


as a framework to provide information and documentation for the required OIG review of
SSA’s information security program, practices, and information systems. See
Appendix D for more details on our Scope and Methodology.

SUMMARY OF RESULTS
Based on the results of OIG and GT’s work, we determined that SSA’s security
programs and practices generally complied with FISMA requirements for FY 2010;
however, there were areas that needed improvement. SSA continues to work toward
maintaining a secure environment for its information and systems. For example, SSA
continues to have consistent processes in a number of areas including, certification and
accreditation (C&A), vulnerability remediation, security training, remote access,
continuous monitoring, and account and identity management.

Although the Agency continues to protect its information and systems, our FY 2009
audit identified, and GT’s FY 2010 financial statement audit identified, certain
deficiencies in internal controls that aggregated to a significant deficiency for financial
statement reporting. It should be noted that a financial statement significant deficiency
in internal control does not necessarily rise to the level of a significant deficiency as
defined in FISMA. 11 The FY 2010 financial statement audit significant deficiency does
not rise to the level of a significant deficiency under FISMA because of other
compensating controls the Agency has in place, such as intrusion detection systems,
guards, closed circuit televisions, automated systems checks, configuration
management, and firewalls.

We also noted that SSA needed to improve certain aspects of security over its systems
and sensitive information. SSA should ensure

•    implementation of effective change control and access control processes;
•    full implementation of an oversight program for systems operated by contractors or
     other entities on the Agency’s behalf;



11
   The definition of a significant deficiency for financial statement internal control is provided by the
Statement on Auditing Standards No. 115 (SAS 115) Communicating Internal Control-Related Matters
Identified in an Audit. SAS 115 states a significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement
of the entity's financial statements will not be prevented, or detected and corrected on a timely basis.
OMB provided the definition of a significant deficiency under FISMA in its FY 2010 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy Management,
April 21, 2010, page 23 defines a significant deficiency as a weakness in an agency’s overall information
systems security program or management control structure, or within one or more information systems
that significantly restricts the capability of the agency to carry out its mission or compromises the security
of its information, information systems, personnel, or other resources, operations, or assets. In this
context, the risk is great enough that the agency head and outside agencies must be notified and
immediate or near-immediate corrective action must be taken.
Page 4 - The Commissioner


•     protection of personally identifiable information (PII); 12
•     proper incident handling and notification;
•     continued improvement in its C&A process;
•     continued improvement in its contingency planning;
•     full implementation of its vulnerability remediation policy;
•     employees and contractors receive security awareness and specialized security
      training; and
•     continued implementation of a continuous monitoring program.

IMPLEMENTATION OF EFFECTIVE CHANGE CONTROL AND ACCESS CONTROL
PROCESSES

OMB Circular A-123 Significant Deficiency

Controlling and limiting systems access to the Agency’s information systems and
resources is the first line of defense in ensuring the confidentiality, integrity, and
availability of the Agency’s information resources. 13 Lack of adequate access controls
compromises the completeness, accuracy, and validity of the information in the system.

In FY 2009, our audit of SSA’s financial statements identified a significant deficiency14 in
the Agency’s control of access to its sensitive information. 15 In FY 2010, GT’s audit of
SSA’s financial statements identified a significant deficiency in the Agency’s change
control management and access to sensitive information. 16

In FY 2009, we reported that SSA needed to periodically recertify individuals’ security
accesses to Agency mainframe computers. 17 Moreover, a policy had not been
established and consistently implemented Agency-wide to periodically reassess the
content of security access to ensure employees and contractors are given least-
privilege accesses for their job responsibilities. Further, SSA was unable to consistently
12
   OMB, M-06-19, Reporting Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, page 1, July 2006, defines PII as any
information about an individual maintained by an agency, including, but not limited to, education, financial
transactions, medical history, and criminal or employment history and information that can be used to
distinguish or trace an individual's identity, such as their name, Social Security number, date and place of
birth, mother's maiden name, biometric records, etc., including any other personal information that is
linked or linkable to an individual.
13
     SSA, Information Systems Security Handbook, Section 2.1.
14
     See Footnote 11.
15
  SSA OIG, Fiscal Year 2009 Evaluation of the Social Security Administration’s Compliance with the
Federal Information Security Management Act (A-14-09-19047), November 2009.
16
   Grant Thornton LLP, Independent Auditor’s Report on SSA’s FY 2010 Financial Statements, November
8, 2010.

17
     See Footnote 15.
Page 5 - The Commissioner


provide evidence that Agency management reviewed security accesses or "profiles" 18 to
determine whether system data, transactions, and resources for financially significant
applications, systems, and related tools were in line with the concept of least privilege.

In FY 2010, GT identified the same issues we reported in FY 2009 and one new issue.
Specifically, GT found that (1) SSA did not consistently comply with policies and
procedures to reassess periodically the content of security access profiles; (2) some
employees and contractors had system access that exceeded the access required to
complete their job responsibilities; and (3) certain mainframe configurations increased
the risk of unauthorized access. 19 Regarding the mainframe configuration issue that GT
found this year, GT reported that some of SSA’s employees and contractors were
provided excessive access. 20 For example, an individual could have modified
information or crashed the system. Once GT discovered the control weakness, SSA
took immediate action to resolve it. GT recommended that SSA implement a policy that
would require a periodic review of the content of the Agency’s profiles and controls to
test and monitor configurations on the mainframe.

According to the Office of the Chief Information Officer (OCIO), SSA has undertaken an
IT project to address the access control weakness related to the significant deficiency.
This project, once implemented, will provide enhanced capabilities for reviewing,
approving and documenting the justifications associated with access requests.

FULL IMPLEMENTATION OF AN OVERSIGHT PROGRAM FOR SYSTEMS
OPERATED ON THE AGENCY’S BEHALF BY A CONTRACTOR OR OTHER
ENTITIES

FISMA requires that agencies protect information collected or maintained by, or on
behalf of, agencies from unauthorized access, use, disclosure, disruption, modification
or destruction. 21 Agencies’ documented information security program should provide for
information security for information and information systems provided or managed by
another agency, contractor, or other source (Contractor System). 22 OMB’s FISMA
guidance states that agency information security programs apply to all organizations
(sources) that possess or use Federal information – or that operate, use, or have
access to Federal information systems (whether automated or manual) – on behalf of a
Federal agency. 23 Federal security requirements continue to apply, and the agency is
18
  A profile is one of TOP SECRET’s primary access control mechanisms. Each profile contains a unique
mix of facilities and transactions that determines what access to systems resources that specific position
needs. TOP SECRET is a commercial access-control package modified to fit SSA’s unique requirements
and operating environment, provides security for SSA systems.
19
     SSA’s FY 2010 Performance and Accountability Report.
20
   Additional details about this control weakness might further compromise SSA’s information and
information system, therefore, they are not provided in the report.
21
     Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A)(i), 44 U.S.C. § 3544(a)(1)(A)(i).
22
     Pub. L. No. 107-347, Title III, Section 301 § 3544(b), 44 U.S.C. § 3544(b).
23
     OMB M-10-15, supra, Frequently Asked Questions, Question 36, page 13.
Page 6 - The Commissioner


responsible for ensuring appropriate security controls.24 Agencies must also develop
policies for information security oversight of contractors and other users with privileged
access to Federal data. 25 In addition, FISMA requirements must be included in
contracts and, when applicable, in grant terms and conditions.26

We determined that SSA’s Contractor System oversight program generally complied
with FISMA requirements for FY 2010. SSA’s Contractor System oversight policy and
procedures are contained in several documents. SSA’s Certification and Accreditation
Handbook contains the required security tasks that apply to all systems including
Contractor Systems. SSA’s Interconnection Approval Process Guide provides guidance
for planning, establishing, maintaining, and terminating interconnections between IT
systems that are owned and operated by non-SSA entities. SSA is also required to
include the Federal security training and privacy requirements in all its services
contracts. 27

Although SSA has a Contractor Oversight process, we identified some areas that
needed improvement. SSA lacks an Agency level contractor oversight policy in its
Information System Security Handbook to provide comprehensive guidance. In addition,
SSA policy does not require that contract terms include all FISMA requirements. We
also found the following two issues with SSA’s Contractor System oversight program.

        SSA’s Master System Inventory Contained All Systems But Did Not Identify
Contractor Systems. In FY 2010, we found three systems that met the definition of
systems “operated on the Agency’s behalf by contractors or other entities” but not
identified as such in SSA’s master inventory. These systems are Access to Financial
Institutions (AFI), operated by Accuity Inc.; 28 E2 Solutions, operated by the General
Services Administration; 29 and Cyber Security Assessment and Management (CSAM), 30
operated by the Department of Justice.




24
     OMB M-10-15, supra, Frequently Asked Questions, Question 36, page 14.
25
     Id.
26
     OMB M-10-15, supra, Frequently Asked Questions section, Question 39, page 16.
27
 Social Security Administration’s Acquisition Handbook, Section 0402 Federal Information Security
Management Act (FISMA) and Agency Privacy Management, October 2008.
28
  AFI is an electronic process to automatically verify financial account balances alleged by claimants and
beneficiaries during the Supplemental Security Income claims and redeterminations processes.
29
     E2 Solution is the travel system adopted by SSA.
30
  CSAM is SSA’s FISMA tracking tool. CSAM enables the Agency and SSA’s C&A Managers to gather
system information and to create reports to support the FISMA assessment. SSA also uses CSAM for
managing the identified weaknesses.
Page 7 - The Commissioner


       SSA Did Not Ensure that All Contractor Systems Met FISMA Requirements
Before Putting Them Into Operation. Agencies are required to provide security
protections for Contractor Systems.31 SSA had taken some steps to ensure that E2
Solutions and CSAM had proper security controls. However, for AFI, SSA did not
ensure the contractor system met FISMA requirements before putting it into operation.

OMB FISMA guidance states, “Agencies are fully responsible and accountable for
ensuring all FISMA and related policy requirements are implemented and reviewed and
such must be included in the terms of the contract.” 32 Agencies must ensure all
Contractor Systems have identical security procedures as its own systems.33 For
example, annual reviews, risk assessments, security plans, control testing, contingency
planning and security authorization (C&A) must, at a minimum, explicitly meet NIST
guidance. 34

Accuity, Inc., has been a service provider to SSA since 2003. In 2003, SSA contracted
with Accuity, Inc., to create a Web-based system that allowed Agency offices to
electronically submit and receive Supplemental Security Income asset information. 35
SSA conducted a limited proof of concept in 20 field offices in New York and New
Jersey in FY 2004. In FY 2005, SSA conducted a pilot in all 110 field offices in the 2
States. In November 2007, SSA decided to expand the system to California. In
September 2010, SSA expanded the pilot once again to 14 additional States. The AFI
application stores PII information. See Table 1 below.

                                   Table 1: AFI Information Types
                          Representative Payee Information
                          Income Information
                          Personal Identity and Authentication Information
                          Entitlement Event Information
                          Payments Information
                          General Retirement and Disability Information
                          Reporting and Information
                          Survivor Compensation Information




31
     Pub. L. No. 107-347, Title III, Section 301 § 3544(b), 44 U.S.C. § 3544(b).
32
     OMB M-10-15, supra, Frequently Asked Questions section, Question 38, pages 14-15.
33
     Id.
34
     Id.
35
  This is referred to as the e4641 Asset Verification System. SSA contracted with Accuity Solutions in
2003 to develop the web-based system that automates the SSA-4641 consent form and handles the
sending and receipt of bank account verifications. The system is owned by Accuity, Inc. The Form SSA-
4641 is the Authorization For The Social Security Administration To Obtain Account Records From A
Financial Institution And Request For Records.
Page 8 - The Commissioner


Before expanding the AFI pilot to 14 additional States, the Agency

•    conducted a System Security Categorization Review to determine the system impact
     level of AFI using federal guidance; 36
•    performed a Risk Assessment (RA) using penetration testing techniques; and
•    obtained a Statement on Auditing Standards (SAS) 70 report on AT&T’s Web
     hosting services. 37

The RA did not examine all security controls as required by NIST; as a result, it may not
have identified all security risks related to the AFI system. The AFI RA report listed only
87 of the 170 baseline security controls required by NIST for a moderate impact
system. 38 Of the 87, 40 controls were assessed. Of the 40 controls assessed, 17 were
physical security controls. The remaining 23 controls assessed resulted in13 security
exceptions (1 high risk, 9 moderate risk, and 3 low risk) and more than a hundred of
recommended security setting changes. Accuity and SSA addressed many of these
security weaknesses immediately, but it is unclear what security risks SSA may be
exposed to because of the security controls that were not assessed before the AFI pilot
was expanded.

According to the OCIO, the AFI system is an important part of the agency’s strategy to
reduce improper payments and the expansion of the AFI pilot that occurred in
September 2010 represented a critical milestone. The timeframe between contract
award and pilot expansion did not permit a full security authorization to be performed.
OCIO staff stated that SSA had taken a risk-based approach to obtain a level of
assurance before expanding the AFI pilot given the short timeframe. SSA believes its
approach is acceptable and compliant with the NIST guidance. Additionally, the Agency
plans to complete a full C&A by the end of December 2010.

We agree that SSA did perform some security-related activities, but the Agency should
have conducted a complete C&A or obtained C&A related information from other
agencies doing business with Accuity before putting AFI into operation. To improve its
contractor system oversight program, we recommend SSA


36
   The review used NIST Special Publication (SP) 800-60, Guide for Mapping Types of Information and
Information Systems to Security Categories and Federal Information Processing Standard 199, Standards
for Security Categorization of Federal Information and Information Systems. The categorization is
derived from identifying the types of information stored or created in the system and determining the
expected impact to SSA from a loss in confidentiality, integrity, and availability to the system or data.
37
   SAS No. 70, Service Organizations, is a widely recognized auditing standard developed by the
American Institute of Certified Public Accountants. A service auditor's examination performed in
accordance with SAS No. 70 represents that a service organization has been through an in-depth audit of
its control objectives and control activities, which often include controls over IT and related processes.
38
  NIST Special Publication 800-53, Revision 3, Online Database, lists the minimum security control
baselines for low-impact, moderate-impact, and high-impact information systems. AFI is a moderate
impact system. There are 170 controls listed as the minimum control baseline for a moderate impact
system. The impact level of a system is referred to the security categorization, see Footnote 36.
Page 9 - The Commissioner


•     establish a separate chapter in its Information System Security Handbook to outline
      all required security tasks for Contractor Systems Oversight according to OMB
      requirements;
•     require that contracts include Federal security requirements;
•     ensure compliance with Federal requirements and Agency policy for Contractor
      Systems Oversight; and
•     complete the AFI C&A prior to further expanding AFI application to more States.

PROTECTION OF PERSONALLY IDENTIFIABLE INFORMATION

Federal agencies must safeguard PII, 39 as required by the Privacy Act of 1974. 40 In
addition, FISMA requires that agencies protect information collected or maintained by,
or on behalf of, agencies commensurate with the risk and magnitude of harm from
unauthorized access, use, disclosure, disruption, modification or destruction. 41 Further,
OMB issued several memorandums42 on how Federal agencies should safeguard PII. 43

SSA has established policies and procedures for PII protection and requires that its
employees be vigilant in safeguarding PII collected and maintained by the Agency in
any format. However, we identified instances where SSA needed to improve its PII
protection.

Our June 2010 report 44 stated SSA’s Office of Disability Adjudication and Review’s
(ODAR) flexiplace 45 practices may have exposed claimant data to unauthorized
disclosure. 46 ODAR allowed flexiplace employees to remove PII stored on
39
     See Footnote 12.
40
     Pub. L. No. 93-579, as amended, § 552a(e)(10), 5 U.S.C. § 552a(e)(10).
41
     Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A)(i), 44 U.S.C. § 3544(a)(1)(A)(i).
42
   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information, May 22, 2006;
M-06-16, Protection of Sensitive Agency Information, June 23, 2006; M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, May 22, 2007; and M-06-19, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments, July 12, 2006.
43
     See Footnote 12.
44
  SSA OIG, Controls Over the Flexiplace Program and Personally Identifiable Information at Hearing
Offices (A-08-09-19079), June 2010.
45
  Flexiplace allows qualified ODAR staff to perform assigned work at a management-approved alternate
duty station, which is typically their personal residence. As such, employees who participate in Flexiplace
take claimants’ case files to their alternate duty stations. These case files can be in paper form or stored
on portable devices, such as compact discs and laptop computers, and generally include claimants’ PII.
46
  OMB Memorandum M-06-16, Protection of Sensitive Agency Information, page 1, June 23, 2006,
recommends that agencies encrypt all data on mobile computers/devices that carry agency data unless
the data is determined to be non-sensitive. Agencies also need to log all computer-readable data
extracts from databases holding sensitive information and verify each extract including sensitive data has
been erased within 90 days or its use is still required.
Page 10 - The Commissioner


unencrypted 47 compact discs. In addition, ODAR employees did not always comply with
SSA’s preventative controls, such as locking claimant PII, when traveling to, or working
at, an alternate duty station. We also determined that ODAR did not always identify the
removal, and confirm the return, of PII. We recommended that ODAR employees store
electronic PII on an encrypted and password-protected laptop when working Flexiplace,
until a compact disc encryption solution for ODAR is developed. Furthermore, we
recommended that SSA reemphasize to ODAR employees the importance of complying
with all Agency PII policies and directives and consider implementing additional
procedures to account for the removal and return of PII.

In a November 2010 audit, 48 we reported computer hard drives awaiting disposal
contained PII. In April 2009, our testing found these hard drives were not properly
sanitized, as required by NIST 49 and SSA policy. 50 In addition, SSA could not account
for the hard drives from some IT equipment awaiting disposal. These hard drives could
potentially contain PII.

After we notified SSA of this issue, it reported the loss of these hard drives to the United
States Computer Emergency Readiness Team (US-CERT). We made several
recommendations to improve SSA’s IT media sanitization policies and procedures. We
recommended that SSA:

•     designate one or more employees in each region who will certify and erase all
      information from IT media;
•     test a representative sample of sanitized IT media to ensure all data and programs
      are effectively erased before disposal; and
•     properly track IT media (that is, hard drives) through the sanitization and disposal
      process.

PROPER INCIDENT HANDLING AND NOTIFICATION

OMB requires that PII and unauthorized access related security incidents be reported to
the US-CERT within 1 hour of discovery or detection. 51 In FY 2010, SSA reported


47
  Encryption is one method used to achieve security for data stored electronically. Encryption software
converts data into a secret code so they are not easily understood, except by authorized users.
48
   SSA OIG, The Social Security Administration’s Controls for Ensuring the Removal of Sensitive Data
from Excessed Computer Equipment (A-14-10-11003), November 2010.
49
  FISMA requires compliance with information security standards promulgated under § 11331 of Title 40,
which includes standards promulgated by NIST. Pub. L. No. 107-347, Title III, Section 301 §
3544(a)(1)(B)(i), 44 U.S.C. § 3544(a)(1)(B)(i). NIST recommends organizations sanitize information
system media prior to disposal, release out of organizational control, or release for reuse. NIST SP 800-
53, Revision 3, Recommended Security Controls for Federal Information Systems and Organizations,
August 2009, Appendix F, page F-74.
50
     SSA, Information System Security Handbook, Section 10.3.1.
51
     OMB M-07-16, supra at page 10.
Page 11 - The Commissioner


80 percent of the PII incidents to US-CERT within 1 hour. In FY 2009, SSA only
reported 35 percent of PII incidents to US-CERT within 1 hour. SSA has made great
strides to improve its PII incident reporting.

Our FY 2009 FISMA report found that SSA conducted additional research to confirm the
PII incident actually occurred. Because SSA sometimes delayed reporting, valuable
time was lost before law enforcement agencies and US-CERT were notified and could
begin their investigation. Further, since SSA waited to confirm a PII incident instead of
immediately reporting a suspected PII incident, the Agency did not comply with OMB
policy. 52

According to SSA, in FY 2010, the Agency revised its policy and no longer required
additional research to confirm the PII incident actually occurred before reporting to
US-CERT. SSA’s new policy is consistent with OMB guidance. 53 In addition, the OCIO
is implementing an automated PII Loss Reporting tool that will enable SSA to report
higher percentage of PII incidents to US-CERT within 1 hour.

In FY 2009, we reported that SSA reported PII incidents to local law enforcement but
not to our Office of Investigations. In FY 2010, we identified the same condition.
FISMA requires that agencies notify and consult law enforcement agencies and their
OIGs regarding security incidents, as appropriate. 54 SSA provided 19 PII incidents that
it stated were reported to law enforcement. We tested a sample of five incidents, and
found that SSA reported four and an SSA contractor 55 reported one to local law
enforcement. However, our Office of Investigations did not receive any reports of PII
incidents. Without receiving these referrals, the Office of Investigations could not
determine whether these cases needed further investigation and therefore could not
ensure SSA resolved these incidents in a timely manner to minimize PII exposure.

Further, SSA’s Incident Response policy and procedures do not provide guidance on
what type of security incidents, and in what timeframe these incidents, are required to
be reported to the law enforcement and the OIG. NIST guidance states that one reason
that many security-related incidents do not result in convictions is that organizations do
not properly contact law enforcement. 56 “The incident response team should become
acquainted with its law enforcement representatives before an incident occurs to
discuss conditions under which incidents should be reported to them, how the reporting
should be performed, what evidence should be collected, and how it should be


52
     Id.
53
     OMB M-07-16, supra.
54
     Pub. L. No. 107-347, Title III, Section 301 § 3544(b)(7)(C)(i), 44 U.S.C. § 3544(b)(7)(C)(i).
55
  SSA could not provide documentation to support that the contractor reported the PII incident to local
law enforcement because the contractor did not provide documentation to SSA.
56
 NIST SP 800-61, Computer Security Incident Handling Guide, Revision 1, Section 2.3.4.2, page 2-6,
March 2008.
Page 12 - The Commissioner


collected.” 57 For PII incidents, SSA’s policy reminds the component managers that they
may need to take additional action, such as filing a report with IG. We believe the lack
of guidance may have led to the findings discussed above.

We recommend SSA work with our Office of Investigations to establish policy and
procedures on what types of PII incidents should be reported to law enforcement and
the OIG and in what timeframes. As a result of these discussions, SSA should revise its
PII reporting policy to document the types of PII incidents and timeframes that should be
reported to law enforcement and OIG. In addition, we recommend SSA report all PII
suspected or confirmed breaches of PII to US-CERT within 1 hour and to the OIG within
established timeframes.

CONTINUED IMPROVEMENT IN CERTIFICATION AND ACCREDITATION
PROCESS

SSA had conducted C&A reviews 58 for its 21 major systems and applications in the past
3 years, as required by FISMA. 59 To test SSA’s compliance with OMB 60 and NIST 61
guidance, we reviewed four of the eight major systems or applications certified in
FY 2010. We found SSA’s C&A program generally met the requirements of NIST 800-
37. However, we found SSA’s Security Assessment process needed improvement.

As reported in our FY 2008 and 2009 FISMA reports, SSA’s security assessments were
largely based on less effective assessment methods, such as examinations and




57
     Id.
58
   According to NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems, May 2004, security certification is a comprehensive assessment of the
management, operational, and technical security controls in an information system, made in support of
security accreditation, to determine the extent to which the controls are implemented correctly, operating
as intended, and producing the desired outcome with respect to meeting the security requirements for the
system. Security accreditation is the official management decision given by a senior agency official to
authorize operation of an information system and to explicitly accept the risk to agency operations,
agency assets, or individuals based on the implementation of an agreed-upon set of security controls.
59
  OMB guidance states, “security authorizations are required for all Federal information systems.”
Section 3544(b)(3) of FISMA refers to “subordinate plans for providing adequate information security for
networks, facilities, and systems or groups of information systems” and does not distinguish between
major or other applications. OMB M-10-15, supra, Frequently Asked Questions, Question 25, page 9.
60
     Id.
61
     See Footnote 59.
Page 13 - The Commissioner


interviews. 62 SSA made some improvements during the FY 2009 C&A process by
significantly increasing the use of the test method 63 to assess the effectiveness of its
security controls. However, we did not see any further improvement in this area in
FY 2010. Our FY 2010 review continued to identify a low percentage of controls were
assessed by hands-on testing.

There were weaknesses related to access control, configuration management, and
other areas tested that should have been identified in the C&A review process. For
example, GT’s financial statement audit systems penetration and security testing
identified weaknesses in patch management, password rules, configuration
management and authentication.

We reiterate our FY 2009 recommendation that SSA continue to improve its C&A
process by increasing the usage of the test assessment method.

CONTINUED IMPROVEMENT IN ITS CONTINGENCY PLANNING

In our FY 2009 FISMA report, we reported that SSA needed to improve its long-term
and comprehensive IT Strategic Planning process to address its future processing
needs, including its replacement project for the current National Computer Center
(NCC). We also stated that SSA needed to address its ability to recover critical data
processing operations in the event of disaster. We recommended that SSA use the
second support center (SSC) as the disaster recovery site for the NCC.

In our 2010 Congressional Response Report: The Social Security Administration’s
Disaster Recovery Capabilities (Limited Distribution), we stated that SSA took steps to
improve its disaster recovery capability. SSA accelerated the use of the SSC as a
backup and recovery center and conducted an Accelerated Disaster Recovery
Environment exercise to test the Agency’s ability to recover completely from an NCC
disaster. We also reported that SSA would be able to restore the Agency’s mission-
critical systems and non-mission-critical systems, with some gaps, should the NCC or
SSC become unavailable.

Although SSA improved its Contingency Planning, the Agency’s disaster recovery goal
of 24 hours did not meet the Federal requirement of 12-hour recovery time. 64 The
62
   NIST SP 800-53A, Guide for Assessing the Security Controls in Federal Information Systems,
July 2008, page 9, defined 3 security control assessment methods: examine, interview and test. The
examine method is the process of reviewing, inspecting, observing, studying, or analyzing one or more
assessment objects. The interview method is the process of conducting discussions with individuals or
groups of individuals within an organization to once again, facilitate assessor understanding, achieve
clarification, or obtain evidence. The test method is the process of exercising one or more assessment
objects (i.e., activities or mechanisms) under specified conditions to compare actual with expected
behavior.
63
     Id.
64
   FCD 1, Federal Executive Branch National Continuity Program and Requirements, February 2008,
page 7, defines Primary Mission Essential Functions as those functions that need to be continuously
performed during an event or resumed within 12 hours of an event, and that need to be maintained for up
to 30 days after the event or until normal operations can be resumed.
Page 14 - The Commissioner


Agency would be able to perform manual processes within the first 12 hours, but this
would not meet the Federal Continuity Directive 1 (FCD 1) requirement. According to
the FCD 1, an organization’s continuity capacity (its ability to perform essential functions
continuously), rests on key components and pillars, which are in turn built on the
foundation of continuity planning and program management. The pillars are leadership,
staff, communications and technology, and facilities. 65 FCD 1 states communications
and business systems, including hardware and software for continuity operations should
mirror those used in day-to-day business to assist continuity leadership and staff in a
seamless transition to crisis operations. 66

SSA reported that the Accelerated Disaster Recovery Environment exercise, which
excluded systems and applications running at the SSC and systems that were
redundant between the NCC and SSC, took 101hours (approximately 4 days) to recover
SSA’s mission-critical workloads. We recommend SSA continue improving its
contingency planning and disaster recovery capacity to meet Federal requirements.

FULL IMPLEMENTATION OF ITS VULNERABILITY REMEDIATION POLICY

FISMA requires that agencies implement an agency-wide information security program
that includes a process for planning, implementing, evaluating, and documenting
remedial action to address any deficiencies in the Agency’s information security
policies, procedures, and practices.67 OMB requires that agencies have a Plans of
Actions and Milestones (POA&M) process to manage their remediation of security
vulnerabilities. 68 In FY 2009, we reported that some of the deficiencies in the Agency’s
information security policies, procedures, and practices were not tracked by CSAM, and
some Agency component quarterly remediation status reports were not provided to the
OCIO. In FY 2010, SSA’s components provided remediation status reports to the
OCIO; however, SSA is still not tracking all information security deficiencies in CSAM.

We found that the POA&Ms for 11 high impact and 24 moderate impact security
deficiencies were not tracked in CSAM. These deficiencies and related remediation
plans were not tracked because SSA’s Office of Telecommunications and Systems
Operations did not report them to the OCIO. If the deficiencies are not reported and
tracked, the OCIO has no assurance the security vulnerability has been remediated.

SSA should ensure all security deficiencies and their related remediation plans are
timely reported and properly tracked in CSAM.




65
     FCD 1, supra, page 3.
66
     FCD 1, supra, page 4.
67
     Pub. L. No. 107-347, Title III, Section 301(b) § 3544(b)(6), 44 U.S.C. § 3544(b)(6).
68
 OMB M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones,
October 17, 2001.
Page 15 - The Commissioner


EMPLOYEES AND CONTRACTORS RECEIVE SECURITY AWARENESS AND
SPECIALIZED SECURITY TRAINING

FISMA and OMB require that all agency personnel and contractors receive appropriate
annual security awareness and specialized security training. 69 The Agency’s policy
stated that its approach to providing information security training to all SSA employees
and systems users follows the guidelines in OMB Circular A-130, Management of
Federal Information Resources, Appendix III, Security of Federal Automated Information
Resources, 70 which indicates that all individuals must be appropriately trained to fulfill
their security responsibilities before they are granted access to agency systems.
FISMA requires that each agency develop, document, and implement an agency-wide
information security program. 71 NIST recommends agencies monitor the compliance
and effectiveness of their security awareness training program. 72 An automated
tracking system should be designed to capture key information regarding program
activity (for example, courses, dates, audience, costs, and sources). The tracking
system should capture the data at an agency level so they can be used to provide
enterprise-wide analysis and reporting regarding awareness, training, and education
initiatives. 73 In our FY 2009 FISMA review, we reported SSA’s security awareness and
training program had two deficiencies. These deficiencies were as follows.

1. SSA did not have an effective process to confirm that all users with log-in privileges
   completed annual security awareness training before accessing the Agency’s
   systems.
2. SSA did not have an effective process to monitor compliance and effectiveness of
   the security awareness and specialized security training program.

In FY 2010, we continue to observe the same weaknesses. In addition, we identified
that SSA’s Security Awareness and Training policy did not provide guidance for
determining the training needs for its employees with significant security

69
  OMB M-10-15, supra at page 15, states “…the agency is responsible for ensuring the contractor
personnel receive appropriate training (i.e., user awareness training and training on agency policy and
procedures).” Pub. L. No. 107-347, Title III, Section 301(b) § 3544(a)(4) requires each agency head to
ensure that the agency has trained personnel sufficient to assist the agency in complying with the
requirements of this subchapter and related policies, procedures, standards, and guidelines. OMB
M-07-16, Attachment 1 § A.2.d states, “Agencies must initially train employees (including managers) on
their privacy and security responsibilities before permitting access to agency information and information
systems. Thereafter, agencies must provide at least annual refresher training to ensure employees
continue to understand their responsibilities. Additional or advanced training should also be provided
commensurate with increased responsibilities or change in duties.”
70
     Section A.3.a.2.b.
71
     Pub. L. No. 107-347, Title III, Section 301(b) § 3544(b), 44 U.S.C. § 3544(b).
72
  NIST SP 800-50 Building an Information Technology Security Awareness and Training Program,
October 2003, page ES-1 states, “Within agency IT security program policy, there must exist clear
requirements for the awareness and training program.”
73
     NIST SP 800-50, supra at section 6.1.
Page 16 - The Commissioner


responsibilities.74 Further, we could not test whether SSA’s employees with significant
IT security responsibilities had appropriate training because the Agency did not maintain
documentation of such training. Without guidance for determining and documenting
training needs, the Agency cannot ensure that employees with significant security
responsibilities receive proper specialized security training for their job responsibilities.

SSA stated that all employees and contractor personnel received appropriate security
awareness and specialized security training. However, in a sample of 30 employees
with significant IT responsibilities, the Agency could only provide evidence that
24 employees received specialized training. We also found that 5 out of 20 new hires in
our sample accessed SSA's systems before they received security awareness training.

We continue to recommend SSA develop a system or process that adequately confirms
all users with log-in privileges complete annual security awareness training. Further,
SSA needs to establish an automated tracking system to create, review, and maintain
security awareness training records for all employees and contractors as evidence of
compliance with OMB A-130, FISMA, and NIST guidelines.

In addition, we recommend SSA provide additional guidance for determining the training
needs for its employees with significant security responsibilities and require retention of
documentation for such training.

CONTINUOUS MONITORING PROGRAM STATUS FOR MEETING OFFICE OF
MANAGEMENT AND BUDGET REQUIREMENT TREND

To date, SSA has complied with the OMB and NIST requirements for its continuous
monitoring program. The continuous monitoring process consists of three tasks:
(i) configuration management and control; (ii) security control monitoring; and (iii) status
reporting and documentation. The purpose of this process is to provide ongoing
oversight and monitoring of the security controls in the information system and inform
the authorizing official when changes occur that may impact the system’s security. The
activities in this process are performed throughout the life cycle of the information
system. Reaccreditation may be required because of specific changes to the
information system or because Federal or agency policies require periodic
reaccreditation of the information system. 75




74
   SSA defined its employees with significant security responsibilities as “Employees with high levels of
access to sensitive data who could affect agency-wide operations and/or who perform security,
investigative, or auditing activities on a frequent basis. Personnel in these roles have significant access
to sensitive information, such as social security records, medical records, business confidential
documents, and other personally identifiable information, which needs to be protected against
unauthorized access; fraudulent activities; and inappropriate disclosure and modification.”
SSA, Information Systems Security Handbook, Appendix H, Security Training.
75
   NIST SP 800-37, supra. NIST issued a revised guidance February 2010 and agencies have 1 year to
fully implement the changes in the revised guidance.
Page 17 - The Commissioner


In its FY 2010 FISMA guidance, OMB stated that “[a]gencies need to be able to
continuously monitor security-related information from across the enterprise in a
manageable and actionable way…. Agencies need to develop automated risk models
and apply them to the vulnerabilities and threats identified by security management
tools.” 76 OMB also stated “any reporting should be a by-product of the agencies’
continuous monitoring programs and security management tool.”77

To meet OMB’s future continuous monitoring requirements, SSA reported it has
procured consulting services to assist in developing a continuous monitoring strategy
that includes evaluating the Agency’s current tools and methods in surveillance and
external reporting. Per SSA, its contractor will identify existing technical solutions that
provide near real-time capabilities that the Agency will be able to leverage for internal
systems security decisions and external reporting. The contractor is also to recommend
additional automated tools, procedures, and/or enhancements to maximize SSA’s
capabilities to this end.

We commend SSA’s proactive efforts to develop a continuous monitoring program that
meet or exceed OMB and NIST requirements. We encourage SSA to continue its
efforts to meet OMB’s requirements in a timely manner.

CONCLUSIONS AND RECOMMENDATIONS
Based on the results of OIG and GT’s work, we determined that SSA’s security
programs generally complied with FISMA; however, some improvements were needed.
SSA continues to work with us to identify ways to comply with FISMA. The Agency
continues to develop, implement, and operate security controls to protect its sensitive
data, assets, and operations.

In our prior FISMA reports, we identified similar issues related to SSA’s (1) computer
security program, (2) access controls, (3) strategic planning, (4) protection of PII,
(5) vulnerability remediation process, (6) employee and contractor security awareness
training, (7) incident reporting, and (8) C&A process. We affirm our prior
recommendations in these areas and encourage the Agency to fully implement these
recommendations.




76
     OMB M-10-15, supra at page 1.
77
     OMB M-10-15, supra at page 2.
Page 18 - The Commissioner


SSA should continue to strengthen its overall security program and practices and
ensure future compliance with FISMA and other information security related laws and
regulations; therefore, we recommend SSA:

1. Continue to implement security controls to resolve the significant deficiency
   identified in this report.
2. Establish a separate chapter in its Information Systems Security Handbook to outline
   all required security tasks for Contractor Systems Oversight according to OMB
   requirements.
3. Require that contracts include Federal security requirements.
4. Ensure compliance with the Federal requirements and Agency’s policy for
   Contractor Systems Oversight.
5. Complete the AFI C&A prior to further expanding AFI application to more States.
6. Work with the OIG Office of Investigations to establish policy and procedures on
   what types of PII incidents should be reported to law enforcement and the OIG and
   in what timeframes.
7. Revise its policy, guidance, procedures, and timeframes for reporting of PII incidents
   to law enforcement, including the OIG.
8. Ensure all PII incidents are reported to US-CERT and the OIG within the established
   timeframes.
9. Provide additional guidance for determining the training needs for its employees with
   significant security responsibilities, require retention of documentation for such
   training, and establish guidance to assess the effectiveness of its security training
   program.




                                            Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General Response to Annual Federal Information
             Security Management Act of 2002 Reporting Inspector General
             Questions
APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – The Social Security Administration’s Certified and Accredited Systems

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                   Appendix A

Acronyms
AFI                 Access to Financial Institutions
C&A                 Certification and Accreditation
                    Systems Operated on Agency’s Behalf by a Contractor or Other
Contractor System
                    Entities
CSAM                Cyber Security Assessment and Management
FCD                 Federal Continuity Directive
FISCAM              Federal Information System Controls Audit Manual
FISMA               Federal Information Security Management Act of 2002
FY                  Fiscal Year
GT                  Grant Thornton LLP
IG                  Inspector General
IT                  Information Technology
NCC                 National Computer Center
NIST                National Institute of Standards and Technology
OCIO                Office of the Chief Information Officer
ODAR                Office of Disability Adjudication and Review
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
PII                 Personally Identifiable Information
Pub. L. No.         Public Law Number
POA&M               Plan of Action and Milestones
RA                  Risk Assessment
SAS                 Statement on Auditing Standards
SP                  Special Publication
SSA                 Social Security Administration
SSC                 Second Support Center
U.S.C.              United States Code
US-CERT             United States Computer Emergency Readiness Team
                                                                                   Appendix B
Office of the Inspector General Response to Annual Federal Information
Security Management Act of 2002 Reporting Inspector General Questions

           Annual FISMA Reporting Inspector General Questions
    Agency Name: Social Security Administration                                Submission date: 11/15/10

                      Section 1: Status of Certification and Accreditation Program

                    a. The Agency has established and is maintaining a certification and accreditation
                    program that is generally consistent with NIST's and OMB's FISMA requirements.
                    Although improvement opportunities may have been identified by the OIG, the program
                    includes the following attributes:
                       1. Documented policies and procedures describing the roles and responsibilities of
                          participants in the certification and accreditation process.
                       2. Establishment of accreditation boundaries for agency information systems.
                       3. Categorizes information systems.
                       4. Applies applicable minimum baseline security controls.
                       5. Assesses risks and tailors security control baseline for each system.
                √      6. Assessment of the management, operational, and technical security controls in the
                          information system.
1. Check one:          7. Risks to Agency operations, assets, or individuals analyzed and documented in the
                          system security plan, risk assessment, or an equivalent document.
                       8. The accreditation official is provided (i) the security assessment report from the
                          certification agent providing the results of the independent assessment of the
                          security controls and recommendations for corrective actions; (ii) the plan of action
                          and milestones from the information system owner indicating actions taken or
                          planned to correct deficiencies in the controls and to reduce or eliminate
                          vulnerabilities in the information system; and (iii) the updated system security plan
                          with the latest copy of the risk assessment.
                    b. The Agency has established and is maintaining a certification and accreditation
                    program. However, the Agency needs to make significant improvements as noted below.
                    c. The Agency has not established a certification and accreditation program.
Comments: SSA should continue to improve the effectiveness of its security assessments by increasing the
number of controls assessed by the “test” method rather than the “interview” and “examine” methods.
                        Section 2: Status of Security Configuration Management
                    a. The Agency has established and is maintaining a security configuration management
                    program that is generally consistent with NIST's and OMB's FISMA requirements.
                    Although improvement opportunities may have been identified by the OIG, the program
                    includes the following attributes:
                       1. Documented policies and procedures for configuration management.
2. Check one:   √      2. Standard baseline configurations.
                       3. Scanning for compliance and vulnerabilities with baseline configurations.
                       4. FDCC baseline settings fully implemented and/or any deviations from FDCC
                          baseline settings fully documented.
                       5. Documented proposed or actual changes to the configuration settings.
                       6. Process for the timely and secure installation of software patches.


                                                 B-1
                    b. The Agency has established and is maintaining a security configuration management
                    program. However, the Agency needs to make significant improvements as noted below.
                    c. The Agency has not established a security configuration management program.

                AIX 5.3                         HP-UX11
                                                                                  USS 1.11
  3. Identify   AIX 6.1                         iSeries OS5 6
                                                                                  Windows XP Professional
  baselines     CA TopSecret 14 GA              Juniper Netscreen 6.1.0r5.0
                                                                                  Windows Vista Enterprise
  reviewed:     Checkpoint R70.1                Oracle DB 11.1.0.7.3
                                                                                  Windows Server 2000
                CISCO IOS 12.2                  Sun Solaris 8
                                                                                  Windows Server 2003
                CISCO IOS 12.3                  Sun Solaris 9
                                                                                  z/OS1.11
                CISCO IOS 12.4                  Sun Solaris 10
Comments: Weaknesses were identified with SSA’s software approval policies, and the Agency has not
established baseline configurations for all environments.

We also identified network vulnerabilities during penetration testing, which the Agency has taken steps to
remediate. In addition, we noted a design deficiency in the process to remediate rogue modems connected to
the SSA network, and SSA’s penetration testing identified systems/software not included in its inventory.
                      Section 3: Status of Incident Response & Reporting Program
                    a. The Agency has established and is maintaining an incident response and reporting
                    program that is generally consistent with NIST's and OMB's FISMA requirements.
                    Although improvement opportunities may have been identified by the OIG, the program
                    includes the following attributes:
                √      1. Documented policies and procedures for responding and reporting to incidents.
                       2. Comprehensive analysis, validation and documentation of incidents.
4. Check one:          3. When applicable, reports to US-CERT within established timeframes.
                       4. When applicable, reports to law enforcement within established timeframes.
                       5. Responds to and resolves incidents in a timely manner to minimize further damage.
                    b. The Agency has established and is maintaining an incident response and reporting
                    program. However, the Agency needs to make significant improvements as noted below.
                    c. The Agency has not established an incident response and reporting program.
Comments: SSA can improve its incident response and reporting program by establishing additional guidance
on reporting incidents to the OIG and law enforcement.
                             Section 4: Status of Security Training Program
                    a. The Agency has established and is maintaining a security training program that is
                    generally consistent with NIST's and OMB's FISMA requirements. Although improvement
                    opportunities may have been identified by the OIG, the program includes the following
                    attributes:
                       1. Documented policies and procedures for security awareness training.
                       2. Documented policies and procedures for specialized training for users with
                          significant information security responsibilities.
                √      3. Appropriate training content based on the organization and roles.
                       4. Identification and tracking of all employees with login privileges that need security
5. Check one:
                          awareness training.
                       5. Identification and tracking of employees without login privileges that require security
                          awareness training.
                       6. Identification and tracking of all employees with significant information security
                          responsibilities that require specialized training.
                    b. The Agency has established and is maintaining a security training program. However,
                    the Agency needs to make significant improvements as noted below.
                    c. The Agency has not established a security training program.




                                                  B-2
Comments: SSA should provide additional guidance for determining the training needs for its employees with
significant security responsibilities, require retention of documentation for such training, and establish guidance
to assess the effectiveness of its security training program.
                     Section 5: Status of Plans of Actions & Milestones (POA&M) Program
                       a. The Agency has established and is maintaining a POA&M program that is generally
                       consistent with NIST's and OMB's FISMA requirements and tracks and monitors known
                       information security weaknesses. Although improvement opportunities may have been
                       identified by the OIG, the program includes the following attributes:
                          1. Documented policies and procedures for managing all known IT security
                       weaknesses.
                 √        2. Tracks, prioritizes and remediates weaknesses.
                          3. Ensures remediation plans are effective for correcting weaknesses.
                          4. Establishes and adheres to reasonable remediation dates.
6. Check one:
                          5. Ensures adequate resources are provided for correcting weaknesses.
                          6. Program officials and contractors report progress on remediation to CIO on a regular
                             basis, at least quarterly, and the CIO centrally tracks, maintains, and independently
                             reviews/validates the POAM activities at least quarterly.
                       b. The Agency has established and is maintaining a POA&M program that tracks and
                       remediates known information security weaknesses. However, the Agency needs to make
                       significant improvements as noted below.
                       c. The Agency has not established a POA&M program.
Comments: We determined that not all POA&Ms were tracked in accordance with SSA’s policy. Furthermore,
SSA does not allocate resources to individual POA&Ms, rather, all security weaknesses needing resources are
funded through its IT planning process. We also noted inconsistencies with POA&M identification and
remediation dates.
                                 Section 6: Status of Remote Access Program
                       a. The Agency has established and is maintaining a remote access program that is
                       generally consistent with NIST's and OMB's FISMA requirements. Although improvement
                       opportunities may have been identified by the OIG, the program includes the following
                       attributes:
                          1. Documented policies and procedures for authorizing, monitoring, and controlling all
                             methods of remote access.
                          2. Protects against unauthorized connections or subversion of authorized connections.
                 √        3. Users are uniquely identified and authenticated for all access.
                          4. If applicable, multi-factor authentication is required for remote access.
7. Check one:             5. Authentication mechanisms meet NIST Special Publication 800-63 guidance on
                             remote electronic authentication, including strength mechanisms.
                          6. Requires encrypting sensitive files transmitted across public networks or stored on
                             mobile devices and removable media such as CDs and flash drives.
                          7. Remote access sessions are timed-out after a maximum of 30 minutes of inactivity
                             after which re-authentication is required.
                       b. The Agency has established and is maintaining a remote access program. However,
                       the Agency needs to make significant improvements as noted below.
                       c. The Agency has not established a program for providing secure remote access.
Comments: We noted that SSA allowed flexiplace employees to remove personally identifiable information
(PII) stored on unencrypted CDs. In addition, SSA did not confirm the return of PII after it was taken out of the
office. Furthermore, SSA did not always remove PII from computer hard drives before disposal.




                                                    B-3
                    Section 7: Status of Account and Identity Management Program
                    a. The Agency has established and is maintaining an account and identity management
                    program that is generally consistent with NIST's and OMB's FISMA requirements and
                    identifies users and network devices. Although improvement opportunities may have been
                    identified by the OIG, the program includes the following attributes:
                       1. Documented policies and procedures for account and identity management.
                       2. Identifies all users, including federal employees, contractors, and others who access
                          Agency systems.
                       3. Identifies when special access requirements (e.g., multi-factor authentication) are
                √         necessary.
                       4. If multi-factor authentication is in use, it is linked to the Agency's PIV program.
8. Check one:          5. Ensures that the users are granted access based on needs and separation of duties
                          principles.
                       6. Identifies devices that are attached to the network and distinguishes these devices
                          from users.
                       7. Ensures that accounts are terminated or deactivated once access is no longer
                          required.
                    b. The Agency has established and is maintaining an account and identity management
                    program that identifies users and network devices. However, the Agency needs to make
                    significant improvements as noted below.
                    c. The Agency has not established an account and identity management program.
Comments: We identified weaknesses with SSA’s process to ensure that accounts are terminated or
deactivated once access is no longer required.
                          Section 8: Status of Continuous Monitoring Program
                    a. The Agency has established an entity-wide continuous monitoring program that
                    assesses the security state of information systems that is generally consistent with NIST's
                    and OMB's FISMA requirements. Although improvement opportunities may have been
                    identified by the OIG, the program includes the following attributes:
                       1. Documented policies and procedures for continuous monitoring.
                       2. Documented strategy and plans for continuous monitoring, such as vulnerability
                          scanning, log monitoring, notification of unauthorized devices, sensitive new
                √         accounts, etc.
                       3. Ongoing assessments of selected security controls (system-specific, hybrid, and
9. Check one:             common) that have been performed based on the approved continuous monitoring
                          plans.
                       4. Provides system authorizing officials and other key system officials with security
                          status reports covering updates to security plans and security assessment reports,
                          as well as POA&M additions.
                    b. The Agency has established an entity-wide continuous monitoring program that
                    assesses the security state of information systems. However, the Agency needs to make
                    significant improvements as noted below.
                    c. The Agency has not established a continuous monitoring program.

Comments:

                          Section 9: Status of Contingency Planning Program
                    a. The Agency established and is maintaining an entity-wide business continuity/disaster
                    recovery program that is generally consistent with NIST's and OMB's FISMA
10. Check           requirements. Although improvement opportunities may have been identified by the OIG,
one:            √   the program includes the following attributes:
                       1. Documented business continuity and disaster recovery policy providing the authority
                          and guidance necessary to reduce the impact of a disruptive event or disaster.


                                                 B-4
                        2. The agency has performed an overall Business Impact Assessment.
                        3. Development and documentation of division, component, and IT infrastructure
                           recovery strategies, plans and procedures.
                        4. Testing of system specific contingency plans.
                        5. The documented business continuity and disaster recovery plans are ready for
                           implementation.
                        6. Development of training, testing, and exercises (TT&E) approaches.
                        7. Performance of regular ongoing testing or exercising of continuity/disaster recovery
                           plans to determine effectiveness and to maintain current plans.
                     b. The Agency has established and is maintaining an entity-wide business
                     continuity/disaster recovery program. However, the Agency needs to make significant
                     improvements as noted below.
                     c. The Agency has not established a business continuity/disaster recovery program.
Comments: Although SSA’s goal to restore primary mission essential functions within 24 hours does not meet
Federal Continuity Directive 1’s 12-hour requirement, SSA has taken steps to improve its disaster recovery
capabilities.
                  Section 10: Status of Agency Program to Oversee Contractor Systems
                      a. The Agency has established and maintains a program to oversee systems operated on
                      its behalf by contractors or other entities. Although improvement opportunities may have
                      been identified by the OIG, the program includes the following attributes:
                         1. Documented policies and procedures for information security oversight of systems
                            operated on the Agency's behalf by contractors or other entities the Agency obtains
                            sufficient assurance that security controls of systems operated by contractors or
                            others on its behalf are effectively implemented and comply with federal and agency
                            guidelines.
                         2. A complete inventory of systems operated on the Agency's behalf by contractors or
                √           other entities.
                         3. The inventory identifies interfaces between these systems and Agency-operated
11. Check
                            systems.
one:
                         4. The agency requires agreements (MOUs, Interconnect Service Agreements,
                            contracts, etc.) for interfaces between these systems and those that is owns and
                            operates.
                         5. The inventory, including interfaces, is updated at least annually.
                         6. Systems that are owned or operated by contractors or entities are subject to and
                            generally meet NIST and OMB's FISMA requirements.
                      b. The Agency has established and maintains a program to oversee systems operated on
                      its behalf by contractors or other entities. However, the Agency needs to make significant
                      improvements as noted below.
                      c. The Agency does not have a program to oversee systems operated on its behalf by
                      contractors or other entities.
Comments: SSA’s inventory does not distinguish between Agency systems and systems operated on its
behalf by contractors or other entities. In addition, we found one contractor system where SSA did not fully
comply with the Federal requirements for contractor systems oversight.




                                                  B-5
                                                                                           Appendix C

Background and Current Security Status
The Federal Information Security Management Act of 2002 (FISMA) requires that
agencies create protective environments for their information systems. It does so by
creating a framework for annual information technology (IT) security reviews,
vulnerability reporting, and remediation planning, implementation, evaluation, and
documentation. 1 In Fiscal Year (FY) 2005, the Social Security Administration (SSA)
resolved the long-standing internal controls reportable condition concerning its
protection of information. 2 However, during the FY 2009 and 2010 financial statement
audit, SSA’s management of access to its systems was identified as a significant
deficiency. 3 SSA continues to work with us and Grant Thornton LLP to further improve
the security and the protection of information and information systems and resolve other
issues observed during prior FISMA reviews.

In the FY 2010 FISMA guidance, OMB Memorandum M-10-15, OMB stated that
agencies need to be able to continuously monitor security-related information from
across the enterprise in a manageable and actionable way. 4 To do this, agencies need
to automate security-related activities, to the extent possible, and acquire tools that
correlate and analyze security-related information. Agencies need to develop
automated risk models and apply them to the vulnerabilities and threats identified by
security management tools. 5 OMB also stated any reporting should be a by-product of


1
    Pub. L. 107-347, Title III, Section 301, 44 U.S.C. § 3544(a)(1), (a)(2), and (b)(1).
2
    SSA’s FY 2005 Performance and Accountability Report, page 164.
3
  The definition of a significant deficiency for financial statement internal control is provided by the
Statement on Auditing Standards No. 115 (SAS 115) Communicating Internal Control-Related Matters
Identified in an Audit. SAS 115 states a significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity's financial statements will not be prevented, or detected and corrected on a timely basis. OMB
provides the definition of a significant deficiency under FISMA. OMB M-10-15, FY 2010 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy Management,
April 21, 2010, page 23 defines a significant deficiency as a weakness in an agency’s overall information
systems security program or management control structure, or within one or more information systems
that significantly restricts the capability of the agency to carry out its mission or compromises the security
of its information, information systems, personnel, or other resources, operations, or assets. In this
context, the risk is great enough that the agency head and outside agencies must be notified and
immediate or near-immediate corrective action must be taken.
4
    OMB Memorandum M-10-15, supra at page 1.
5
    Id.


                                                        C-1
the agencies’ continuous monitoring programs and security management tool. 6
Agencies should provide direct feeds from their security management tools to
CyberScope. For those agencies that do not have this ability, OMB will soon release a
roadmap that will allow agencies to upload data from security management tools to
CyberScope. 7

For FY 2010, FISMA reporting for agencies through CyberScope will follow a three-
tiered approach: 8

          1. Data feeds directly from security management tools.
          2. Government-wide benchmarking on security posture.
          3. Agency-specific interviews.

This year, OMB instructed the Inspectors General (IG) to focus on their respective
agency’s management performance, in line with the requirements of FISMA. 9 The IGs
were asked to assess agency performance in 10 major FISMA programs10 specified by
OMB using pre-established key attributes for each program. IGs were also required to
determine areas for significant improvement if any agency programs did not have these
key attributes.11 See details in Appendix B.

This report informs Congress and the public about SSA’s security performance and
fulfills OMB's requirement under FISMA to submit an annual report to Congress. It
provides OMB an assessment of SSA’s IT security strengths and weaknesses and a
plan of action to improve performance. OMB requires that agencies use an automated
tool, CyberScope, to submit the annual FISMA report.




6
    OMB Memorandum M-10-15, supra at page 2.
7
    Id.
8
    OMB Memorandum M-10-15, supra at pages 2-3.
9
    OMB M-10-15, supra at page 3.
10
     Id.
11
  The OMB-specified attributes for each program and the significant improvement examples are posted
on OMB’s CyberScope Website. The agency Chief Information Officers and IGs all report through
CyberScope.


                                                  C-2
                                                                                         Appendix D

Scope and Methodology
The Federal Information Security Management Act of 2002 (FISMA) directs each
agency’s Office of Inspector General (OIG) to perform, or have an independent external
auditor perform, an annual independent evaluation of the agency’s information security
program and practices, as well as a review of an appropriate subset of agency
systems. 1 We contracted with Grant Thornton LLP (GT) to audit the Social Security
Administration’s (SSA) Fiscal Year (FY) 2010 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the GT financial statement audit contract.
This evaluation included Federal Information System Controls Audit Manual (FISCAM)
level reviews of SSA’s financial related information systems. GT performed an “agreed-
upon procedures” engagement using FISMA, Office of Management and Budget (OMB)
Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, National Institute of
Standards and Technology guidance, FISCAM, and other relevant security laws and
regulations as a framework to complete the OIG-required review of SSA’s information
security program and practices and its information systems.

The results of our FISMA evaluation are based on our FY 2010 financial statement audit
and working papers related to its agreed-upon procedures engagement as well as
various audits and evaluations performed by this office and other entities. We also
reviewed the final draft of the Chief Information Officer 2010 Annual FISMA Report.

Our evaluation followed OMB’s FY2010 FISMA guidance and focused on the following
SSA programs: Certification and Accreditation, Configuration Management, Security
Incident Management, Security Training, Remediation/ Plans of Action and Milestones,
Remote Access, Identity Management, Continuous Monitoring, Contract Oversight and
Contingency Planning.

We performed field work at SSA facilities nationwide from March to November 2010.
We considered the results of other OIG audits performed in FY 2010. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




1
    Pub. L. No. 107-347, Title III, section 301(b), 44 U.S.C § 3545 (a)(1), (a)(2), and (b)(1).
                                                                         Appendix E

The Social Security Administration’s Certified and
Accredited Systems
                              System                                         Acronym
                       General Support Systems
1    Audit Trail System                                           ATS

2    Comprehensive Integrity Review Process                       CIRP

3    Death Alert, Control and Update System                       DACUS

4    Debt Management System                                       DMS
     Enterprise Wide Mainframe & Distributed Network
5                                                                 EWANS
     Telecommunications Services System
6    FALCON Data Entry System                                     FALCON

7    Human Resources Management Information System                HRMIS

8    Integrated Client Database                                   ICDB

9    Integrated Disability Management System                      IDMS

10   Quality System                                               QA

11   Security Management Access Control System                    SMACS

12   Social Security Online Accounting & Reporting System         SSOARS

13   Security Unified Measurement System                          SUMS

                          Major Applications
1    Electronic Disability System                                 eDib
2    Earnings Record Maintenance System                           ERMS

3    National Investigative Case Management System                NICMS

4    Recovery of Overpayments, Accounting and Reporting System    ROAR
     Retirement, Survivors, & Disability Insurance Accounting
5                                                                 RSDI ACCTNG
     System
6    Supplemental Security Income Record Maintenance System       SSIRMS

7    Social Security Number Establishment and Correction System   SSNECS
8    Title II System                                              Title II
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division
   Grace Chi, Acting Audit Manager

Acknowledgments

In addition to the persons named above:

   Tina Nevels, Auditor
   Michael Zimmerman, Auditor

For additional copies of this report, please visit our Website
at www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-20109.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
